Case No. 19-8556

In The
SUPREME COURT OF THE UNITED STATES

 

Anthony Jackson, Petitioner,
ve
Supreme Court of Illinois, Respondent, M.R.30370

 

PROOF OF SERVICE

 

I, GEORGE JACKSON III, do swear that on this date, July 16, 2020, as required by
Supreme Court Rule 29, I served the enclosed Combined Rules 22 and 23 Application for
Emergency Stay on the party to the above proceeding or that party’s counsel, and on every other
person required to be served, by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class postage prepaid, or by
delivery to a third-party commercial carrier for delivery within 3 calendar days. The names and
addresses of those served are as follows:

Supreme Court of Illinois through Michael M. Glick, Office of Illinois Attorney
General, 100 W. Randolph St., 12th Floor, Chicago, IL 60601, mglick@atg.state.il.us

Respectfully submitted,
JuLy 16, 2020
DATE

 

 

DRED‘ScoTT LLP

Attorney Bar# 313137

55 West Monroe, Suite 990
Chicago, Illinois 60603-5001
(312) 833-0896
GJackson@DredScottLLP.Com
